OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

COA No- 06-19-00263-CR
9/30/2020
PD-0677-200
BEYER, DENNIS MARTIN JR. Tr. Ct. No. 28247
On this day, the Appellant's Pro Se petition for discretionary review has been
refused:.
Deana Williamson, Clerk
DENNIS MARTIN BEYER JR.
TELFORD UNIT - TDC # 2298991
3899 STATE HWY 98
NEW BOSTON, TX 75570

INMATE DECLARATION
I declare under penalty of perjury that the foregoing notice
is a true and correct copy of the original, which is on file with
the Court of Criminal Appeals of Texas.
*)

Executed on the 16th day of December, 2020.
O'

DENNIS MARTIN BEYER, JR.
PETITIONER

In The
Court of Appeals
Sixth Appellate District of Texas at Texarkana

No. 06-19-00263-CR

DENNIS MARTIN BEYER, JR., Appellant
V.
THE STATE OF TEXAS, Appellee

On Appeal from the 6th District Court
Lamar County, Texas
Trial Court No. 28247

Before Morriss, C.J., Burgess and Stevens, JJ.
Memorandum Opinion by Justice Burgess

MEMORANDUM OPINION
A Lamar County jury found Dennis Martin Beyer, Jr., guilty of continuous sexual abuse of
a young child and imposed a sentence of ninety-nine years’ imprisonment. The jury also found
Beyer guilty of sexual assault of a child and imposed a sentence of twenty years’ imprisonment
and a $10,000.00 fine. On appeal, Beyer argues that the indictment failed to allege a mens rea for
continuous sexual abuse of a child and that the trial court erred in reopening the evidence in the
punishment phase of the trial after both parties had rested. We find (1) that Beyer failed to preserve
his complaint about the indictment and (2) that the trial court did not abuse its discretion by
reopening the evidence. As a result, we affirm the trial court s judgments.
I.

Beyer’s Complaint About the Indictment Is Unpreserved
Section 21.02 of the Texas Penal Code states that a person commits the offense of

continuous sexual abuse of a child if,

0)

during a period that is 30 or more days in duration, the person
commits two or more acts of sexual abuse, regardless of whether the
acts of sexual abuse are committed against one or more victims; and

(2)

at the time of the commission of each of the acts of sexual abuse,
the actor is 17 years of age or older and the victim is a child younger
than 14 years of age, regardless of whether the actor knows the age
of the victim at the time of the offense.

Tex. Penal Code Ann. § 21.02(b). This portion of the statute requires no additional mens rea
because an “act of sexual abuse” under Section 21.02 “means any act that is a violation of one or
more of the [listed] penal laws,” including aggravated sexual assault of a child. Tex. Penal Code
Ann. § 21.02(c). As a result, “Section 21.02 ... is defined in terms of other acts that by their
terms require a culpable mental state” and “need not prescribe some additional mental state
2

A

because its actus reus is merely the repeated commission of acts already requiring culpable mental
states.” Lane v. State, 357 S.W.3d 770, 776 (Tex. App.—Houston [14th Dist.] 2011, pet. ref d).
Even so, Beyer argues that the indictment was fundamentally defective because it did not
specify any level of mens rea for the offense of continuous sexual abuse of a child or for any
underlying offense. In response, the State argues that Beyer complains of a defect in form or
substance, which was required to be raised below. We agree.
Article 1.14(b) of the Texas Code of Criminal Procedure states,
If the defendant does not object to a defect, error, or irregularity of form or
substance in an indictment or information before the date on which the trial on the
merits commences, he waives and forfeits the right to object to the defect, error, or
irregularity and he may not raise the objection on appeal or in any other
postconviction proceeding.
Tex. Code Crim. Proc. Ann. art. 1.14(b).
The State’s indictment alleged that Beyer was charged with continuous sexual abuse of a
child, correctly referred to Section 21.02 of the Texas Penal Code as the statute of offense, and
listed several predicate offenses of aggravated sexual assault with a child. Beyer s argument is
not that the indictment was so defective that it failed to allege the crime of continuous sexual abuse
of a child—it is only that the indictment failed to allege a mens rea.
This Court has previously rejected the argument that a failure to allege a mens rea
constitutes a fundamental defect. Piland v. State, 453 S.W.3d 473, 479-80 (Tex. App.
Texarkana 2014, pet. ref d). This is because the “omission of an element of the offense . . . does
not prevent the instrument from being an information.” Smith v. State, 494 S.W.3d 243, 247 (Tex.
App.—Texarkana 2015, no pet.) (concluding that “[bjecause the information is sufficient to
3

A

identify the penal statute under which the State intends to prosecute, the error is not a
‘fundamental’ error”) (quoting Mantooth v. State, 269 S.W.3d 68, 72 (Tex. App. Texarkana
2008, no pet.)) (The Texas Court of Criminal Appeals held, in Studer [v. State, 799 S.W.2d 263,
272 (Tex. Crim. App. 1990)], that “the language in Art. V., § 12 [of the Texas Constitution],
‘charging a person with the commission of an offense, does not mean . .. that each element of the
offense must be alleged in order to have an indictment or information as contemplated by Art. V,
§ 12.”).

As a result, Beyer “was required to assert any objection ‘to any defect, error, or irregularity
of form or substance in [the] indictment’ before trial,” and the omission of a mens rea was such a
defect. Nguyen v. State, 506 S.W.3d 69, 78 (Tex. App.—Texarkana 2016, pet. reTd) (quoting
Tex. Code Crim. Proc. Ann. art. 1.14(b)). By failing to raise the issue below, Beyer failed to
preserve the complaint he now asserts for the first time on appeal. Accordingly, we overrule his
first point of error.
II.

The Trial Court Did Not Abuse Its Discretion by Reopening the Evidence
The decision to reopen is left to the trial court’s sound discretion.” Cuba v. State, 905

S.W.2d 729, 733 (Tex. App.—Texarkana 1995, no pet.) (citing Cain v. State, 666 S.W.2d 109
(Tex. Crim. App. 1984), overruled on other grounds by Peek v. State, 106 S.W.3d 72, 79 (Tex.
Crim. App. 2003)). Article 36.02 “provides that the trial court ‘shall allow testimony to be
introduced at any time before the argument of a cause is concluded, if it appears that it is necessary
to a due administration of justice.’” Peek, 106 S.W.3d at 75 (quoting Tex. CODE Crim. PROC.
Ann. art. 36.02)).
4

Here, both parties rested and closed their punishment case before taking a lunch break, The
charge had not been read to the jury and argument had not begun. After the break, the State asked
to reopen the evidence to call Courthouse Deputy Monty Rodgers because it learned that Beyer
was allowed to make a phone call during lunch and “was overheard very loudly saying he intended
to make very vulgar and inappropriate comments to the victim at the conclusion of trial.” Over
objection, the trial court allowed the State to reopen the evidence. Rodgers testified, “I heard him
saying that he was going to turn and look at the victim and her family in the face and tell them to
suck his dick .... He also said what are they going to do to me, hold me in contempt.”
Beyer argues that the trial court erred in admitting^this'evidence under Article""36.027
Article 37.07 of the Texas Code of Criminal Procedure provides that during the punishment phase
of trial, evidence as to any matter deemed relevant to sentencing may be admitted. Tex. CODE
Crim. Proc. Ann. art. 37.07, § 3(a)(1) (Supp.). Evidence is relevant to sentencing if it is “helpful
to the jury in determining the appropriate sentence for a particular defendant in a particular case.”
Rodriguez v. State, 203 S.W.3d 837, 842 (Tex. Crim. App. 2006). Such evidence includes the
defendant’s character. Tex. Code Crim. Proc. Ann. art. 37.07, § 3(a)(1). Rodgers’s testimony
provided material evidence bearing on Beyer’s character, including his attitude toward the victim,
lack of remorse, and likelihood of non-rehabilitation. As a result, we find that the trial court did
not abuse its discretion in concluding that Rodgers’s testimony was necessary to a due
»

administration of justice.

Also, Article 36.02 “does not limit a trial court’s discretion to reopen a case at any time
before argument has concluded.” Swanner v. State, 499 S.W.3d 916, 920 (Tex. App.
5

Houston

[14th Dist.] 2016, no pet.) (citing Smith v. State, 290 S.W.3d 368, 373 (Tex. App. Houston [14th
Dist.] 2009, pet. ref d)). Instead, “[t]he statute merely mandates certain circumstances in which a
trial court is required to reopen the evidence before argument is concluded.” Id.; see Cuba, 905
S.W.2d at 733 (“[T]he trial court must reopen a case when the witness is present and ready to
testify, the request to open has been made before the charge was read to the jury and final
arguments were made, and the judge has some indication of what the testimony will be and is
satisfied that it is material and bears directly on the main issues in the case.”).
We conclude that the trial court did not abuse its discretion by granting the State’s request
to reopen the evidence before closing arguments began. As a result, we overrule Beyer’s last point
of error.
III.

Conclusion
We affirm the trial court’s judgments.

Ralph K. Burgess
Justice
Date Submitted:
Date Decided:

July 2, 2020
July 9, 2020

Do Not Publish

6

Court of Appeals
Sixth Appellate District of Texas
JUDGMENT

Dennis Martin Beyer, Jr., Appellant
No. 06-19-00263-CR

v.

The State of Texas, Appellee

Appeal from the 6th District Court of
Lamar County, Texas (Tr. Ct. No. 28247).
Memorandum Opinion delivered by Justice
Burgess, Chief Justice Morriss and Justice
Stevens participating

As stated in the Court’s opinion of this date, we find no error in the judgment of the court
below. We affirm the judgment of the trial court.
We note that the appellant, Dennis Martin Beyer, Jr., has adequately indicated his
inability to pay costs of appeal. Therefore, we waive payment of costs.

RENDERED JULY 9, 2020
BY ORDER OF THE COURT
JOSH R. MORRISS, III
CHIEF JUSTICE
ATTEST:
Debra K. Autrey, Clerk

If •^*S*%;v'.w**:

"*.*^i:;#^"^-Si|tt3.-J.f»:V>-i««>'l)ft

1l/2tV20t9 136 PM LH

12/6/2019 6:22 AM LH
page 1

Nw 23 2019 1629 hf> Ft* 9037830568

n/ss/ans ist?<

i

li

IN THE SIXTH DISTRICT COURT OF LAMAR COUNTY, TEXAS

: I
THE STATE OF TEXAS

I

vs.

j

ORDER APPOINTING ATTORNEY

!

CAUSE NO. 28247

DATE:

PACE 03/93

UWfi DISTRICT OCT*

*s-%:

REQUEST FOR JaTLTIME

! fife

COMPLETE* RETURN TOTHEDlSTRiCr CLERK'S OFFICE ”*
WITH A COP\ OF JAIL CARDS ATTACHED
TO THE SHEfcUT OF LAMAR COUNTY, TEXAS

r

ON APPEAL

I
1

DENNIS MARTIN BEYER, JR.

900

DEFENDANT:
CAUSE NO.:
JW:
DATE SENTENCED:
DATE OCCURRED:
01/25/201*
OIVENSE:
SEXUAL ASSAULT CHILD

NOVEMBER 26,2019

IT IS HEREBY ordered that Honorable Troy Hornsby, is hereby appointed to represent the above

: f*B
IS&—M
<
ff

DENNIS MARTIN BEYER, Jr.
28247
HI9-98

tn

wanm

OVianXlS; 0i/l0/2015j W/Ol/lOiSl 04/15/MI7; 06/15/2017;
SEX ABUSE OP CHILD CONTINUOUS: VICTIM UNDER W:j

named defendant on appeal herein.
SIGNED on this the 26th day ofNovembcr. 2019.

P!m« advise the District Gerit’t office Immediately of the days the above named person has bce,n in
custody in your|sii or ia custody elsewhere under rarest ct detainer in connector, with 4e above mentioned
cause or causes prior to the date of sentencing
BEGINNING DATE:

Judge Presiding

ENDING DATE:

DAYS:

1&S

55 vW\u &4^

AoiQ

Signed Oris

day of _MtoVR/nIc^-

■T

E-';
?

p ■■

?<

S

§ gF
n3

11
i II s |i

Ir

s

TOTAL DAYS:

PS 3 3*

AS

| si 5 II

!
Scott Cass, Sheriff
Limn County. Texas

ia:;-:

jUb^

u.

Deputy
i

137

1

138

Sp

m

Case No. 28247

COUNT ONE
Incident N0./TRN: suim&iG

In The 6TH District

§
§

THE.STATE OF TEXAS

Court

V.

”

§

DENNIS MARTIN BEYER, JR

LAMAR COUNT!

§

^

p>#

3 i-., •? i

.JlSfCsP

;______ gfjg

WHITe/MALe DOB: 07/23/1970
State ID No.: TX-03795266

Judgment of Conviction by JuK-j gg -s- ^5**
Judge Presiding:

In aftsxrdaflce with live jury a verdict, the Court AOJUDtn® Defendant CUtLtt of ib« above offense. The Court Finds that
ths Proseotfcnco Investigation, if ao ordered, was done according to the applicabln provisions of Suhchapter F, Chapter 42A Tea. Code
Crim. Proc.'*:^
-Tha............
Court ORDERS Defendant punished In •ceoidanoc with the
t July's Vftxlicl or Court's:findings an to ths proper punishment
a* indicated above. After having no nducted an inquiry into Deftnda nt.'n ohilit
ity to pay. the Courtt Orders Defendant to pay Utc fine.
court coataTknd restitution, if any, as indicated above.

NOVEMBER 22,2W9i;w

WES TIDWELL

Attorney fer State:

jggsR:Both parties annooncud raid? Ibr trial. It appeared to the Court that Defendant whs mentally competent to rlnnd trial, A
jp|%jury wai aetorted, impaneled,‘and mm, and Defendant, entered a plea to the charged offense. The Court reeoived the pica and ■*,
jffipFe-ntwnd it of record.
••• "
>
**&••
Th* jury heard the evidence tuhroiMad and argument of couneel. The Court chained the jury a:. to He duty to determine the
rguUt or intmconce of Dafeftdsnt, and the jury retired to consider the evidence. Upon returning t» open court, the jury delivered iia
‘
rdiei in the i presence of Defendant and defense counsel, if any.
The Court received the verdict and Ordered it entered i
the minutes of ths Court.
SSJtpD (select one)
re)
<Juury, Defendant entered a plea and filed a written election to have the jury assuas punishment. Tho jury heard evidence reinlive to -i
th* (jtwniiun of punwhtwait. The Court chanted the jury and it retired to consider the question of punishment. After due deliberation, ^
ihs jury was brought into Court, and, in open court, it returned.its verdict as indicated above.
gp
Q Court .Defendant elected to have the Court ftease? punishment After hearing evidence relative to the question of punishment, tbs '5|
Court aaswsad Defendant'* punirhment as indicated abmw.
Q No Election.1 Defendant did not file n written dection *s to whether the judge or jury should acre** punishment. After hearing
evidence relative to the question d punishment, the Court aawsaed Defendant'# punishment as indicated above.

Attorney fer
Defendant

KELSEY DOTY

NICK STALLINGS

flfTnm* for which Defendunt. finavicted:

SEX ABUSE OF CHILD CONTINUOUS: VICTIM UNDER 14

Ol

^{Confinement In Stftto 'Joil or Institution#! Division. The Court OHDEltS the authorised agent nf tho State of Tores or tho
CoutuvSborifTtii ta\o' and deliver Defendant to the Director of the Correctional Inatitulioas Division, TDCJ, for placement in
eonfinamwitTu arwwdanne with this judgment. The Court ORDERS Defendant remanded to the custody of the County ShrrifT uoul
^
the ShartffSrijobay the directions of thi* paragraph. Upon role*so from confinement, the Court ORDERS Defendant to proceed
without unnecessary tiolay to the District Clcrk'a ofCru. or any other office dciugnaled by the Court or the Court's dongne-e. to pay or
‘ • to tnaha arrangamenta to pay any fine, eonrt coat*. «md restitution due
0||CouDty'dnil--Confin«!»*Rt / Confinement in Ueu of Payment. The Court ORDERS Defendant committed to the custody of
th* County Sheriff iramsdiafely nr on thfi date ths sentence ramunenrae. Dfifrjidantahall bo confined in ihe county jail fertile period
indicated above. Upon reisaw from confinement, the Court ORDERS Defendant to proceed without unnecessary delay to the District
ClerkTofEco, or any other office deeignatad by tba Court or tbs Court‘t. dosignite. to pay or to moha arrangemeuta to pay any fins,
courthosts, end restitution due.
0 Pine Only Payment, Tlio punishment assessed against Defendant. Is fer a PitfK ONLY. The Court Ohdhiw Defendant to proceed
immediately U> tho District Oerkh offita. or any other office designated by the Court or tho Court's designee, to pay or to make
arrangements to pay the fine, court eoctc, and restitution ordered by the Court in this cause.
0 ; Confinement as o Condition of Community Supervision. Tha Court. Orders Defendant confined N/A days in Lamar
County jail is a condition of community auparvismn. The period of confinement as a audition of community supervision starts when
v Defendant arrive* at the dftsignstod fadlicy, absent a apodal order to the contrary,

Statute fer Offeuaa:

Chanring Instrument:
INDICTMENT
Date of Offense:
01/10/2016 THRU 6/16/2017
Degree of Offense:

21.02 TEXAS PENAL CODE
Ploa to Offtni*:
NOT GUILTY

FIRST DEGREE FELONY
Verdict of Jurv:

N/A

GUILTY
1“ Enhancement
Paragraph:

N/A

fe"1 Enhancement
Paragraph:

N/A

Finding on ln Enhancement
Paragraph:

N/A
Finding on 2"*
Enhancement Paragraph:
N/A
nfttd^O.tf'bCft-Cf'tntnqnscsjCNFt.WacBtwrtr'-w^tkm.miniTOlMi

PnniuhTnunt: Aoe«»ed bv:

NOVEMBER 22, 2019

JURY
P ‘X

NINETY-NINE (39) YEARS INSTITUTIONAL DIVISION, TDCJ

R>aculIo&J.Su«i>ct»it------- ----—
S^Tbn Court ORDERS Defendant1* sentence EXECUT8D. The Court FINDS that Defendant is entitled to the jail time credit indicated
above. The attorney for the etate. attorney for the defendant, the County Sheriff, and any other person having or who had custody of
Defendant ahull assist the clerk, or person responsible for rompfeting this judgment, in calculating Defendant's credit for time served.
All supporting documentation, if any, concerning Defendant'* credit for time served is incorporated herein by this reference.

THIS SENTENCE SHALL HUN: CONCURRENTLY.
D SENTENCE OF CONFINEMENT SUSPENDED, DEFENDANT PLACED ON COMMUNITY SUPERVISION FOR N/A YEARS.
rn..

—.A,,

rf rr, n—i 'll —■fni|B,n I,

hlUaftniwI_____________________ _____ _

® Defendant ie required to register as sox offender in accordance with Chapter 62, CCF.
(For sex offender rekittratioa purposes only) Tbu age of the victim at the time of the offcusc was ELEVEN (11) YEARS.
Court Costs:
Restitution:
Restitution Pnvnhla to: N/A
Fine:
(S»e special finding or o;nlor of restitution which is
$ N/A
$704.00
$ N/A
incorporated herein by this
t reference.)
Was tho vklim impact statement returned to the Attorney representing the State? YES.
(Kn: stays jut fitom OFrsssrs win Is Defendant presumptively entitled to diligent partiripo tion credit in accordance with Article
4EA.550. Tex. Code Crim. Proc.? N/A
Total Jail Time Credit:
2 DAYS
N/A DAYS NOTES; N/A
This cause was called fer trial by jury and the partioa appeared. Tho State appeared by h*r District Attorney as named above,
jjsalecotone)
M Defendaut appeared with counaol.
□ Defendant appeared without counsel and Imowingly, intelligently, and voluntarily waived the right to representation by counsel
: in open court,
[~1 Defeatdantwas tried in absentia.
JvCCinMU «fCaPv'cttat *7 JttxfAK

^

• 'f-

139

Signed and entered on DECEMBER

//

. 201 &

T3n

.lUDGEPWJSlDlNC-'^

Clerk: SHAWNTtX OOIJJEN

i

l

SW^airnl U ttarMelHe Vy iwryA**

140

§

Incident No/TBN: 8147691646

IN THE tf™ DISTRICT COURT

§

OF

§

LAMAR COUNTY, ’TEXAS

i

Court

§

§

DENNIS MARTIN BEYER, JR

no

~~
LAMAR County, ta$=S

§

WStTE/MALeDOB: 07/33/1970

A

• ‘f

-- gs

3

State ID NO.: TX-0679B296

Defendants Right Thumbpriw

)>-,

3

1

§

CERTIFICATE OF THUMBPRINT

■I

_

It* 15?,

§

v.

3

§

DENNIS MARTIN BEYER, JR.

_r
3

In The 6TH Distbi'ct0-5 ^

The State of Texas

§

YS

Count SIX

Case No. 28247

CAUSE NO. 28247

STATS OP TEXAS

JUDGMENT OF CONVICTION BY JURY
Jndge Presiding

WES TIDWELL

Attorney fur State:

KELSEY DOTY

Date Sentence
Imposed:
Attorney for
Defendant:

NOVEMBER 22, 2018
NICK STALLINGS

Offense for .which. Doferulint Conrictad:
SEXUAL ASSAULT CHILD
Statute for
INDICTMENT
Date of Offense:
01/25/2018
Degree of Offense:

22.011(a)(2) TEXAS PENAL CODE
NOT GUILTY

SECOND DEGREE FELONY
Verdict of Jury:

Findings on Deadly Wasnon:

GUILTY
1“ Enhance mont '
Paragraph:
2** Enhancement
Paragraph:

Defendant’s Signature

N/A
Finding on 1“ Enhancement
Paragraph:
Finding on 2“*
Enhancement Paragraph:

N/A
N/A

N/A
N/A

a cm: o««tn mi *prtr >• entstam ml m • caaaew efemmaftr

JURY

ITiis is to certify that the thumbprint above is the above-named Defendant’s thumbprint taken ai
the time of disposition of the above styled end numbered cause.

NOVEMBER 22, 2019

Punishment and Place
of Confinement:

TWENTY (20) YEARS INSTITUTIONAL DIVISION, TDCJ
THIS SENTENCE SMALL BUN: CONSECTTVELY.

[J SENTENCE OF CONFINEMENT SUSPENDED, DEFENDANT PLACED ON COMMUNITY SUPERVISION FOR N/A YEARS.

20 ft.

Signed the 9 9 day of jfOd\J

(Tit OxhpipI nttlBiE fartb iV* enOOvn, rfiumimittr mwiThV'Ji G tagjtpwilH Mi hr Uih rimn)

13 Defendant ie required to regteter a« sex offender in accordance with Chapter 62, CCP.
(For aex offender reedatration purpoeas only) The ace of the victim at the time of the offenae wae FIFTEEN (16) YEARS
Fine:
Pnvable br. N/A'
Court Costa:
RcirtiQttion:
(See special finding or order of restitution which is
$ 10,000.00
$N/A
$ N/A
incorporated herein by this reference.)
Was the victim impact statement, returned to the attorney representing the State? YES..

Shawntel GoldctvDislrict Clerk
---- v Lamar County, Texas
By:.

0,

.Deputy
-

(for sr*n jail rtLONYQi'ttNSBSOitLn le Defendant presumptively entitled to diligent participation credit in accordance with Article
42A.559, Tes. Code Crim. Proe.? N/A
•tfr>p<hnd»nti
1 tail or is gtvefi credit toward ftp* i^ coiti. enter day* credited hfilpff.
Total Jail Time Credit:
2DAYS
N/A DAYS NOTES: N/A *
This cause was «>U*A for trial by jiury and the parties appeared. The State appeared by her District Attorney as named ibtrvo.
elect one)
3 Defendant appeared with counsel.
O Defendant appeared without counsel and knowingly, intelligently, and voluntarily waived the right to representation by counsel
in writing in open court.
O Defendant was tried in absentia.

141

i

JatgmMi «r Cordelia briarrJte

Pa*>9«t4

142

I
ared to the Court that Defendant was mentally competent to stand trial. A
Doth parties announced ready for trial. It appeal
..: entered a plea to tb* charged offenea. The Court received tba plea and
jury was selected, impaneled, and a<vom, and Defendant
entered i t of record.
The jury hoard the evidencu submitted and argument of cuuusel. Th« Court charged the jury a* to i» duty to determine tbs
guilt sr innocence of Defendant, and the jury retired tn consider the evidence. Upon returning to open court, tba jury delivered its
verdict in the presence of Defendant and defense counsel, if any.
The Coait received the verdict and Ordered it entered upon the minutes of tba Court.
r
Punishment Assessed bv Jury/Court/Ntn-lcctloc (select one)
13 Jury DofenHam entered a pies and filed a written election to have the jury assess puniahment. Tbo jury board evidence relativ* to
.
tho question of puaiohtseoL The Court charged (ho jury and it retired to con aider the question af pun&ihtneot. After due deliberation,
j.
the jury was brought into Court, and. in open court, it returned, ila verdict as indicated above.
O Court Defendant elected to hava the Court aiwos punishment. After hearing evidence relative to the qneatien of punishment, tho
Court assessed Defendants pumshmant a* indicated above.
uuithmonL After hearing
O No Election. Defendant did not fils a written election as to whether the judge or Jury should ««*»** pu
evidence relative tn th e question of punishment,:the Court aesosredDefMidanfe punishment as indicated atwvn.
lu accordance
e wiOi the jury’s verdict, Un> Court ADJUPOK5 Defendant GutLTV of the above offense. The Court FtN!)9 that
the Presentence Inveaiigation. if an ordered, wait done areaniimr to tba applicable jmsvwioos of Subchapter F. Chapter 42A, Tea. Code
Grim. Proc.
Tbo Court Orders Defendant punished in arenrdanre with (ho jury's verdict or Court’s finding* as to the proper punishmvm
aa indicate d abova. After having conducted an inquiry into Drfimdn nt's ability to pay, the Court ORDERS Defendant to pay the fine.
• court costa, and restitution, if an}’, aa indicated above.
Funlahyncnl: Options (select one)
0 Confinement in State Jail or Institutional Division. The Coon ORDERS tho authorised agent of tbs Stnte of Texas or the.
County Sheriff to take and delivar Defendant to the Director of tin- Corrections) Institutions Division, TDCJ. for piaicement u>
confinement in accordance with this judgment. The Court ORDERS Defendant rerhandad to the custody of the County Sh eriff until
(he Sheriff can obey tlw directions of tlm paragraph. Upon misuse from confinement, tho Court ORDERS Defendant to proceed
without aoaeeeosary delay to tho District Clerk's office, or any other office designated by the Court or the Court’s dssigneo. to pay or
tn risks arrangement* to pay any firm, court coals, and restitution due.
D. County Jail—Confinement / Confinement in Lftiu of Payment. The Court ORDERS Defendant committed to the custody of
the County Sheriff immediately or on the date the aentenre commences. Dofeodont shall he confined in thv county jail for the period
indicated above. Upon release from confinement, the Court Orders Defendant to proceed without unnecessary delay to the District
Clark'* office, or any other office doaigiiated by tbs Court or tha Court's design*!, to pay or to make arrangement* <o pay any fine,
court coate, and restitution due.
□ Fine Only Payment. Hie punishment assessed againet: Defendant i* for a n.*E ONtr. The Court ORDERS Defendant to proceed
immediately to the District Clerk's office, or any other office designated by the Court or the Court’* design *.
o to pay or to raaka
arrangements to poy tho fine, court costa, and restitution ordered by tho Court in this mure.
N/A days in Lamar
D Con finnroent as a Condition of Community Supervision. The Court O
County jail
condition of community auparvietas. The period cf confinement a* a condition of community supervision start* when
Defend:ant arrives at tho designated facility, aheont a apodal order to the contrary
Execution /Suspension of Sentence
iSJ The Court. ORDERS Defendant's xmiencr Executed The. Court Finds that Defendant i« entitled to tho jail time credit indicated
above. Tb* attorney tor (be ita!«. »iturn»y for tho defendant, the Coun^ Sheriff, aad any othor person having or who had emtfody of
Defendant shall awiat the clerk, or portion reepcneible fur completing this judgment, in cal'cnlalhif Dafendant's credit for time served,
ated herein by this referow*.
All aupporting documentation, if any, concerning Dcfend-ini* credit for time served i* tncorpora
Cumulation Order. Tex. Code Crlm. Proc. art. 42D1 S i{19)
c
ceases
The Coon Orders foe wnenee in this judgiijwnt»run constcui ively and to begin only when ihejudjpncm and sentence in foe (olknring cbk
nt d«i rd Dreember___ . 2M9 ardering * wattnee of NINETY-NINE (99) t •EARS IN
loopcme: C*ate Number 1S2*7-C0IINt orNE,a
THE TEXAS DEPARTMENT OF CRIMINAL
CK - INSTITUTIONAL DIVISION for foe offense of SfX ARUSE OK OHU)
CONTINUOUS: VICTIM UNDER 14 In tht 6* Dtrtrlft Court of Umar Comirt. Tex*?.

Signed and entered on DECEMBER

11

f

CAUSE NO. 28247
STATE OF TEXAS

t.

§

I

VS

§

IN TIffi 6™ DISTRICT COURT
OF

§

DBNNTS MARTIN BEYER, JR.

§

LAMAR COUNTY, TEXAS

CERTIFICATE OF THUMBPRINT

Defendant’s Right Thumbprint

if

Dcfendont’s Signature

This is to certify that the thumbprint above is the above-named Defendant’s thumbprint taken at
the time of disposition of the above styled and numbered cause.

Signed the 9^- day of jQ ffu

20 ft.
Shawntc! Golden, District Clerk
i—v Lamar County. Texas
By:.

i/a

.Deputy

. 2019

K.
JUDGE PRESIDING

Ckrk: SUAWJTf EL GOLDEN
i:
HfaiMen 4 \jnrnnm W JorrAe

143

144

*T

